OFFICE OF INSPECTOR GENERAL

AUDIT OF
USAID/AFGHANISTAN’S
MANAGEMENT CONTROLS
OVER OVERTIME
COMPENSATION
AUDIT REPORT NO. F-306-14-001-P
MARCH 23, 2014


KABUL, AFGHANISTAN
Office of Inspector General


March 23, 2014

MEMORANDUM

TO:                USAID/Afghanistan Mission Director, William Hammink

FROM:              OIG/Afghanistan Director, James C. Charlifue /s/

SUBJECT:           Audit of USAID/Afghanistan’s Management Controls Over Overtime
                   Compensation (Report No. F-306-14-001-P)

This memorandum transmits our final report on the subject audit. In finalizing the report, we
considered your comments on the draft report and included them in their entirety in Appendix II
of this report.

This report contains four recommendations to help USAID/Afghanistan strengthen its
management controls over overtime compensation for its staff. Based on our evaluation of
management comments in its response to our draft report, we acknowledge management
decisions on all four recommendations. However, we do not agree with the decision for
Recommendation 1. Also, based on the mission’s comments we deleted one recommendation
that was in the draft report.

Please coordinate final action with USAID’s Audit Performance and Compliance Division (APC)
for all four recommendations.

Thank you for the cooperation and courtesies extended to the audit team during this audit.




U.S. Agency for International Development
Office of Inspector General
U.S. Embassy Kabul, Afghanistan
http://oig.usaid.gov
CONTENTS
Summary of Results ................................................................................................................. 1

Audit Finding ............................................................................................................................. 5

     Overtime Was Controlled Poorly .......................................................................................... 5

Evaluation of Management Comments.................................................................................. 11

Appendix I—Scope and Methodology ................................................................................... 14

Appendix II—Management Comments .................................................................................. 16
SUMMARY OF RESULTS
Afghanistan has been among the top recipients of U.S. assistance since 2002. Given the
magnitude of the U.S. development assistance in that country, the U.S. Government has
exerted considerable effort to attract people to work there and help administer the assistance.
According to the mission’s Office of Financial Management, total operating expenses and
program funds level for Afghanistan was $1.8 billion for fiscal year (FY) 2013.

The Afghanistan service recognition package1 is designed to recognize the “exceptional factors
involved in service in Afghanistan.” In addition to basic salary, the package includes overtime
and other types of premium pay to compensate certain categories of employees for substantial
amounts of extra work performed. At the same time, employees are expected to manage their
time effectively and to make sure that any overtime worked is essential to meet the U.S.
Government’s goals.

The following categories of employees are eligible to receive overtime and other types of
premium pay: noncommissioned Foreign Service Officers, Civil Service employees assigned to
Afghanistan, and U.S. and third-country national personal service contractors.2 Commissioned
Foreign Service Officers are not eligible for premium pay, but receive a special differential of
20 percent of base pay in recognition of substantial extra work performed. Members of the
Senior Foreign Service and Senior Executive Service are not eligible for overtime pay.

USAID/Afghanistan has the following premium pay categories:

1. Overtime: hours officially ordered or approved beyond 8 hours in a day or 40 hours in an
   administrative workweek.

2. Sunday differential: premium paid in addition to regular pay for work on Sundays. The basic
   workweek in Afghanistan is Sunday through Thursday.

3. Holiday pay: premium paid for work performed on a holiday observed during the employee’s
   basic workweek hours.

4. Compensatory time: alternative compensation for overtime work.

According to payroll reports generated by USAID’s electronic time and attendance system,
webTA, USAID/Afghanistan’s employees received premium pay for approximately 468,277
hours covering all 26 pay periods of 2011 and the first 17 pay periods of 2012—January 1,
2011, to August 25, 2012, as shown in Table 1 on the next page. Of this total, approximately
333,348 hours, or 71 percent, were overtime hours.




1
  This is a special employment package for people stationed in missions that are designated as “hardship
posts.”
2
  Locally employed staff also are eligible to receive overtime and other types of premium pay. But they
were not included in the scope of our audit and are not included in any of the statistics provided in this
report.

                                                                                                        1
     Table 1. Premium Pay Compensation January 1, 2011, to August 25, 2012 (Audited)

                  Premium Pay                                      Percentage of
                                                  Hours
                  Category                                         Premium Pay Hours

                  Overtime                        333,348                   71
                  Sunday differential             129,832                   28
                  Compensatory time                 5,098                    1
                  Total                           468,278                  100
                 * Calculation of overtime included holiday pay.

 USAID/Afghanistan paid approximately $16.6 million for overtime compensation during the
 period covered by the audit. Because overtime pay comprised most of the premium pay, our
 audit focused on overtime compensation.

 The audit identified the following control procedures for overtime that the mission has put in
 place:

    Overtime work must be requested and approved in advance and in writing in webTA.3
    Overtime work must be fully justified and in compliance with Agency policy.
    No overtime or compensatory time may be worked in the absence of proper approval.

 As indicated in Table 2 below and in Figure 1 on the next page, most of the overtime hours
 claimed in a given pay period ranged from 41 to 50 hours for eligible employees.

             Table 2. Overtime Paid, January 1, 2011, to August 25, 2012 (Audited)
 Range of Overtime
 Hours for Eligible         Total Overtime            Percentage of Total
                                                                                            Cost ($)
 Employees in a Given       Hours                     Overtime Hours
 Pay Period
          1 to 10                  28,738                        8.62                      1,429,190
         11 to 20                  35,852                       10.76                      1,782,982
         21 to 30                  55,699                       16.71                      2,770,008
         31 to 40                  84,810                       25.44                      4,217,748
         41 to 50                 122,244                       36.67                      6,079,406
         51 to 60                   3,356                        1.01                        166,900
         61 to 70                   1,434                        0.43                          71,315
         71 to 80                     680                        0.20                          33,818
         81 to 90                     351                        0.11                          17,456
         91 to 93                     184                        0.06                           9,151
          Total                   333,348                     100                         16,577,974
* To determine the cost values, we multiplied the total cost with the percentages of the total overtime hours in
each range. Due to rounding, the percentage total is 100.01.




 3
   This system provides a central record or audit trail of all entries made within the system by each
 individual (employee, supervisors, and timekeeper) and provides an electronic record including the date
 and time of each entry or approval recorded by each person.

                                                                                                           2
     Figure 1. Percentage of the Ranges of Overtime Hours for Employees for Pay Periods
                                      Covered by Audit4




The Office of Inspector General’s (OIG’s) Afghanistan Country Office conducted this audit to
determine whether USAID/Afghanistan was following adequate control procedures for overtime
compensation.

The audit found widespread noncompliance with control procedures that were in place and
policies for controlling overtime compensation (page 5). We found the following significant
control deficiencies.

     Ninety-four percent of overtime hours (worth $15,654,552) were paid without any record of
      overtime requests in webTA.

     Two percent of overtime hours (worth $358,766) were paid although requests were
      submitted late—some after the overtime was completed.

     One percent of overtime hours (worth $193,805) were paid, but did not include a description
      of the work performed in webTA.

     For less than 1 percent of overtime hours (worth $76,040), the justifications for working
      overtime in webTA were so vague that it was not possible to tell what work was performed.

     Less than 1 percent of overtime hours (worth $24,617) were paid for time spent in training

4
    Due to rounding, this totals 100.01 percent.

                                                                                               3
   and travel status, which are not eligible for overtime compensation.

In summary, applicable control procedures were not followed for 98 percent of the overtime
hours paid during the audited period (worth $16.3 million). This was based on the audit of
payroll reports generated by webTA that the audit team received from the Office of the Chief
Financial Officer, the Office of Afghanistan and Pakistan Affairs (OAPA) in Washington, and the
mission’s Office of Financial Management covering the scope of our audit.

In its comments on the draft audit report, the mission stated that the data it provided for the
audit were incomplete and that a more complete set of overtime data had been identified and
analyzed. Based on its analysis the mission determined the questioned costs identified by the
OIG in Recommendation No. 1 to be allowable. Because the mission gave the data to OIG after
the audit was completed, however, OIG has no basis to determine whether or not the new data
and associated analysis are complete and reliable without performing a new audit.

The report recommends that USAID/Afghanistan:

1. Determine the allowability of $16,283,163 in unsupported questioned costs, representing
   overtime expenses that were missing the required approvals, for which justifications were
   missing completely, or for which justifications were too vague to serve as a basis for
   approvals, and recover the amounts determined to be ineligible for payment under
   applicable regulations or USAID or mission policies (page 10).

2. Determine the allowability of $24,617 in ineligible questioned costs, representing overtime
   paid for time in training or in travel status, and recover the amounts determined to be
   ineligible for payment under applicable regulations (page 10).

3. Develop and implement more effective training, control activities, and monitoring related to
   control of overtime compensation (page 10).

4. Provide periodic reports, at least quarterly, to the mission director on its monitoring of control
   activities related to overtime compensation until it can demonstrate an acceptable degree of
   compliance with applicable regulations and policies (page 10).

Appendix I describes the audit scope and methodology (page 14). Our evaluation of
management comments appears on page 11.




                                                                                                   4
AUDIT FINDING
Overtime Was Controlled Poorly
The U.S. Government and USAID have numerous guidelines on how to control overtime costs.
Some are discussed below.

   Office of Management and Budget (OMB) Circular A-11 states that federal entities should
    “ensure that adequate approval, monitoring, and auditing procedures are in place to prevent
    overtime abuses." Abuse of overtime, in addition to violating the public trust, can impose
    significant unnecessary financial costs that are ultimately borne by taxpayers.

   USAID’s Automated Directives System (ADS), Section 596.3.1, provides that “management
    and employees must establish and maintain an environment throughout the organization
    that sets a positive and supportive attitude toward internal control and conscientious
    management.” According to Standards for Internal Control in the Federal Government,
    published by the U.S. Government Accountability Office (November 1999), “A positive
    control environment is the foundation for all other standards. It provides discipline and
    structure as well as the climate which influences the quality of internal control.” Many factors
    influence the control environment, including management’s philosophy and operating style,
    and the integrity and ethical values demonstrated at all levels of an organization.

    In addition, the section provides that “USAID managers and staff must develop and
    implement appropriate, cost-effective internal controls that produce results and assure the
    financial integrity of transactions.” This requirement includes internal controls over overtime
    compensation.

   ADS 472.2.a.1 states, “Supervisors are responsible for making sure that work assignments
    are accomplished in a timely manner through the use of efficient management of assigned
    personnel without the use of premium compensation, unless absolutely essential.”

   ADS 472.2.b.1 states “Authorizing officers are responsible for determining whether
    requested overtime is fully justified and in compliance with Agency policy.”

More specific requirements for requesting and approving overtime are included in the Code of
Federal Regulations (CFR), ADS, and USAID/Afghanistan’s internal policies.

   Title 5 CFR, Section 550.111(a), states that overtime work must be officially ordered or
    approved.5 Section 550.111(i) precludes paying overtime for time spent in training, except
    for certain exceptions listed in 5 CFR 410 and 402. Section 550.112(g) states that time in
    travel status, away from an employee’s official duty station, is not considered employment
    for computing overtime pay except in certain situations.



5
  This requirement applies both to regular overtime work (defined in Section 550.103 as “overtime work
that is part of an employee’s regularly scheduled administrative workweek”) and to irregular or occasional
overtime work (defined as “overtime work that is not part of an employee’s regularly scheduled
administrative workweek”).

                                                                                                        5
   USAID’s “Implementation of the WebTA Electronic Time Keeping System,” a mandatory
    reference to ADS 472, states that:

       Premium pay (overtime and compensatory time) requests are done electronically
       in webTA. Employee requests for premium compensation (i.e. overtime pay or
       compensatory time off) for overtime work must always be approved in advance
       by the supervisor. Approval is transmitted electronically through webTA, and it is
       the responsibility of the employee requesting premium pay to log on to webTA in
       advance of the proposed hours for overtime or compensatory time and obtain the
       proper authorization. No hours of overtime or compensatory time may be worked
       in the absence of the proper approvals.

    This requirement for advance approval of overtime pay requests is not precluded by a
    separate requirement for supervisors to certify all employee time and attendance data at the
    end of each pay period, according to the USAID/Afghanistan Notice 2011-90, dated
    October 20, 2011, mentioned below.

   An e-mail sent from the mission to employees on March 8, 2011, stated:

       Overtime can be requested only through webTA, for any employee who has
       access to webTA. It must be requested, in advance, with specific justification for
       the additional hours of work to be performed.

       Oral or email approvals are not recognized as valid. Supervisors should not
       certify overtime that was not requested in advance, via webTA.

       Employees cannot self-authorize overtime; the requirement for the work to be
       performed on overtime must be driven by official requirements and must entail
       work that cannot be otherwise performed during normal work hours. This
       determination must be made and documented by the supervisor, using webTA.

       It is highly probable that the timekeeping for Afghanistan will be audited. You do
       not want to receive a bill of collection for hours denied because they were
       authorized improperly.

   USAID/Afghanistan Notice 2011-90, dated October 20, 2011, superseded all previous
    formal and informal guidance on time and attendance matters and stated:

       Employees MUST formally submit to their Supervisor for approval all requests in
       advance for any leave or overtime contemplated.

       Employees are not to take leave or work overtime until such approval has been
       provided by the Supervisor.

       Supervisors are responsible for approving or disapproving all employee requests
       for overtime, compensatory time, and leave.

       For USAID employees paid outside the local FSN compensation plan, all time
       and attendance functions will be completed within the Agency electronic webTA
       program. All time and attendance records, including requests and approval for
       overtime, compensatory time, and leave MUST be completed by both the

                                                                                              6
         employee and Supervisor within webTA. There is no Agency exception to use of
         the webTA system.

     USAID/Afghanistan’s “Timekeeping Policy Summary,” dated November 2011, for staff and
      supervisors stated, “All time and attendance reporting must be submitted through the webTA
      system” and “All overtime must be preapproved and completed in webTA.”

Our audit found widespread noncompliance with these requirements, as shown in Table 3 and
discussed below.

               Table 3. Unsupported and Ineligible Overtime Hours Paid (Audited)
                  Percentage of
                                          Cost ($)
    Hours Paid    Total Overtime                                             Problem
                  Hours
     314,779            94               15,654,552        Overtime was not requested in webTA.
                                                           Overtime was requested in webTA, but it was
       7,214             2                  358,766        not requested and approved in advance as
                                                           required.
                                                           No description of work performed or
       3,897             1                  193,805        circumstances necessitating overtime was
                                                           included in webTA.
                                                           It was not possible to tell what work was
      1,529          less than 1            76,040         performed because the justifications provided
                                                           in webTA were vague.
         69          less than 1             3,431         Overtime paid for time in training.
        426          less than 1            21,186         Overtime paid for time in travel status.

Ninety-four percent of the overtime hours recorded in webTA for payment during the period
covered by our audit, worth $15,654,552, were not requested in webTA. Another 2 percent,
worth $358,766, were requested in webTA, but the requests were not submitted and approved
in advance as required. Therefore, we are questioning $16,013,318 as unsupported questioned
costs.

For 1 percent of total overtime hours, worth $193,805, the required justifications in webTA were
missing entirely. In addition, for 1,529 overtime hours—worth $76,040—it was not possible to
tell what work was performed because the justification provided in webTA was so vague.
One employee cited “overtime development” to justify working overtime. Some other examples
are listed below:

     “I work with NATO militaries and keep a seven-day schedule as they do. I also work some
      late nights and evenings attending meetings and briefs” (45 hours, worth $2,238).

     “Work Schedule is 7:30am - 6:00pm daily except Friday (no work day). Commence my first
      R and R on June 17, 2011 and return on July 4, 2011 (94 hours, worth $4,675).

     “Extend'd [sic] working day hour Fridays Saturdays addit'l (sic) time required 4 Mili [sic]
      liaison activities infrastructure related develop't (sic) activities security issues attend battle
      rhythm meetings 4 theater posture” (40 hours, worth $1,989).

     “12-13 August Mission/Kabul; 17-18 Mission/Field; 24-25 Mission/Field” (45 hours,
      worth $2,238).

                                                                                                       7
   “Normal work day at CNS” (8 hours, worth $398).

   “Request for 45 hours of OT to work on program implementation and planning” (45 hours,
    worth $2,238).

   “Attendance at military meetings mandatory and requires hours beyond the 24 limit”
    (360 hours, worth $17,903).

   “Mission requirements exceed regular duty hours” (45 hours, worth $2,238).

   “8 hrs overtime - 1 hr lunch = 8-5” (9 hours, worth $445).

   “OT submission is within the Mission approved limits of 35 hours” (26 hours, worth $1,293).

   “Hours requested represent the standard work day to accommodate [sic] briefings and
    meeting schedule for the base” (36 hours, worth $1,790).

   “DST works on weekend” (32 hours, worth $1,591).

   “Normal battle rhythm includes working 7 days a week. Given 8:30 stand-up and 18:00
    stand-down there are generally 1-2 hours OT during regular work days” (45 hours, worth
    $2,238).

   “working Christmas” (8 hours, worth $398).

   “over time request for work related to DST goals” (45 hours, worth $2,238).

   “Overtime to support KPRT mission goals” (45 hours, worth $2,238).

   “Work to support mission objectives” (45 hours, worth $2,238).

   “I am requesting approval for overtime beyond 40 hours for this pay period” (29 hours, worth
    $1,442).

   “Projected OT:In absence of EFM newcomer coordinator. TX You!” (34 hours,
    worth $1,691).

   “RCB-E works on a military battle rhythm, so typical work hours are 45 of o/t per pay period”
    (45 hours, worth $2,238).

   “Let me know if this is acceptable or not. If not, or cannot, no worries. I am fairly stuck here
    in Kabul waiting for the OSM training and have a lot of telework to do” (16 hours,
    worth $796).

   “In order to catch up on my work from leave, I applied for 22 hrous [sic] of OT.” (19 hours,
    worth $945).

   “Following my return from RR, I will need the overtime to catch up on my work” (13 hours,
    worth $647).


                                                                                                  8
     “Overtime request for pay period” (45 hours, worth $2,238).

     “Within 35 hour cap” (27 hours, worth $1,343).

     “Projection of 10 hour days six days per week with 2 hours each Friday and one holiday for
      checking work email and answering high priority questions or attending required military
      meetings” (45 hours, worth $2,238).

We are questioning $76,040 as unsupported questioned costs because they were vague
and not supported by justifications describing the official requirements or work that could not
be performed during normal working hours.

Finally, overtime compensation was paid incorrectly for time spent in training and travel. During
the period covered by our audit, 69 hours, worth $3,431, were paid for time spent in training,
and 426 hours, worth $21,186, were paid for time in travel status. Thus, we are questioning
$24,617 as ineligible questioned costs.

Overtime was controlled poorly because USAID/Afghanistan supervisors and employees were
not following established requirements for requesting and approving overtime. Although the
mission provided training to its employees on overtime policies and webTA, the training did not
achieve an acceptable degree of compliance with applicable regulations and USAID and
mission policies regarding overtime use. It is not enough to establish internal control policies:
management also is responsible for monitoring the effectiveness of those controls on an
ongoing basis.6

Moreover, the control environment within the mission with respect to overtime compensation
was weak. During the period covered by our audit, mission leaders issued many separate
notices, policies, and instructions concerning procedures for requesting and approving overtime.
However, they did not follow up to make sure the requirements were being followed.

In some cases, leaders did not exhibit a positive, supportive attitude toward internal control and
conscientious management. For example, they told us that while the mission requires
employees to ask for overtime in advance, it allows individual supervisors to make exceptions.
Giving them that discretion makes numerous USAID and mission policies inapplicable.

Because USAID/Afghanistan controlled overtime poorly, the mission may have paid
$16,307,780 in unsupported and ineligible overtime compensation. Since the overtime hours
involved comprised 71 percent of the premium compensation paid during the audit period, we
conclude that the mission lacks reasonable assurance that overtime compensation paid to its
employees is reasonable and allowable, leaving the mission vulnerable to potential abuse.

Mission Reports Finding More Complete
Data Supporting Approved Overtime

The mission’s comments on the draft audit report state that the data it provided to OIG for
performing this audit were incomplete. Mission officials said the data “query tried to match
approved premium pay requests from one table with premium pay hours worked from another
table and given the complexities of the WebTA database, the output resulted in a number of

6
    ADS 596.3.1.e covers the need to monitor control activities continuously.

                                                                                                9
unanticipated inaccuracies.”

The mission’s comments also stated that OAPA performed an analysis of a complete overtime
data set. They also stated that the mission considered the allowability of the questioned costs
as recommended by the OIG in Recommendation No. 1 and determined the costs to be
allowable. (Appendix II has the mission’s comments.)

At the time OIG received the webTA data used for this audit, it performed audit steps that
provided reasonable assurance that the data were reliable. Unfortunately, the new data from
OAPA was provided to OIG after fieldwork ended and mission comments were received on the
draft report. Subsequently, OIG performed a limited review of the new data and followed up with
OAPA about questions and data concern issues it identified. The questions have not been
answered and are discussed in the Evaluation of Management Comments on page 11.

Without performing an audit of these new data, OIG cannot determine whether or not the
mission was more compliant with overtime controls than the audit found. OIG does not plan to
audit the new data.

   Recommendation 1. We recommend that USAID/Afghanistan determine the allowability
   of $16,283,163 in unsupported questioned costs representing (1) $16,013,318 in
   overtime expenses that were missing required approvals by USAID supervisors,
   (2) $193,805 in overtime expenses for which justifications were missing completely, and
   (3) $76,040 that were too vague to serve as a basis for approvals, and recover the
   amounts determined to be ineligible for payment under applicable regulations or USAID
   or mission policies.

   Recommendation 2. We recommend that USAID/Afghanistan determine the allowability
   of $24,617 in ineligible questioned costs, representing overtime paid for time in training
   or in travel status, and recover the amounts determined to be ineligible for payment
   under applicable regulations.

   Recommendation 3. We recommend that USAID/Afghanistan implement more effective
   training, control activities, and monitoring related to control of overtime compensation.

   Recommendation 4. We recommend that USAID/Afghanistan provide periodic reports,
   at least quarterly, to the mission director on its monitoring of control activities related to
   overtime compensation until it can demonstrate an acceptable degree of compliance
   with applicable regulations and policies.




                                                                                                    10
EVALUATION OF MANAGEMENT
COMMENTS
In the mission’s response to the draft report, officials said that the “expectation of the Agency
and the Embassy, by and large, is that employees in Kabul will work at least six days per week
(field officers outside of Kabul are often expected to work seven days per week) and more than
eight hours on any given day.” It recognizes that guidance provided by the U.S. Embassy in
Kabul and USAID/Afghanistan has sometimes been inconsistent and may have created
confusion among USAID employees working in Afghanistan.

Based on the mission’s comments, we deleted one recommendation found in the draft report.
The mission wrote that it reached management decisions on all four of those remaining.
However, we do not agree with the decision for Recommendation 1. Our evaluation of the
management comments is provided below.

Recommendation 1. The mission disagreed with this recommendation and requested OIG to
revise it to reduce the amount of questioned costs based on analysis OAPA performed in
response to the draft report. It stated that USAID gave OIG incomplete webTA data for this audit
and described the data shortfalls. The mission also stated that due to the “time constraint” in
responding to OIG’s request, USAID could not verify the data it initially provided to OIG by
comparing them to timecards. Nonetheless, the mission determined the total amount of
questioned costs to be allowable. However, we disagree with the mission’s management
decision on this recommendation.

OAPA compiled data and completed an analysis of an overtime data file. It concluded that
64.75 percent of overtime paid was requested and approved in webTA instead of 6 percent
reported by OIG. A table included in the mission’s comments summarizes this analysis. On
February 7, 2014, OAPA gave OIG the data it used.

OIG reviewed the data and had concerns. OAPA’s data file was missing important fields that
were in the webTA OIG used. These included “certified date,” “approve/deny date,” and “submit
date.” They contained dates and times of each entry in webTA to include when overtime was
requested, approved or denied, and certified for payments. The audit team used the data fields
to determine whether overtime was requested and approved by supervisors in advance. Without
these fields, we cannot use the same process to determine whether overtime paid was
requested and approved in webTA, as claimed by the mission.

The OAPA data also did not contain other webTA fields such as “supervisor’s names” and
“supervisor’s organization codes.” Without these fields, we cannot determine whether overtime
paid was certified by supervisors or other officials familiar with the employees’ work at the time
of certification. OIG also noted that the OAPA data file was not limited to overtime data; it also
included sick leave, excused absences, and other types of premium pay such as compensatory
time requests.

OIG noted that OAPA’s data analysis included data fields that were not found in the webTA data
used in OIG’s original analysis. This is because OAPA’s data file states that webTA data were



                                                                                               11
merged with National Finance Center (NFC) data; the center is the federal agency that oversees
payroll for numerous agencies.

Based on all of these concerns, OAPA’s analysis of the data does not adequately support the
claim that 64.75 percent of the paid overtime was indeed requested and approved in advance
as required in webTA. Without auditing the new data, OIG cannot determine whether that
percentage was requested and approved in advance as reported by the mission.

In addition to the concerns we have with the new data from OAPA, we take exception to the
mission’s comment that “[i]n nearly every case, the supervisor approved the timecard thereby
approving the hours worked.” During the audit, we reviewed electronic timesheets within
webTA. We noted that employees who had valid overtime requests had details showing dates
when they made the request and when those requests were approved in webTA. However,
webTA records used for the audit did not show that employees submitted overtime requests in
webTA as required because the details under “Submit Date” in webTA were left blank.

The mission’s master timekeeper told the audit team this meant that employees had not
submitted advance overtime requests in webTA. However, even though the overtime requests
were not submitted and approved in advance in accordance with USAID and the mission’s
policies and procedures, employees still entered overtime hours worked on their timesheets in
webTA, validated their time cards, and their supervisors then certified those timesheets for
payments.

We also take exception to the mission’s comment that “furthermore, until 2012, employees who
worked in the field completed manual timecards and faxed them to their respective Kabul
timekeeper.” In its comments to the draft report, the mission stated that due to the limited
connectivity in various locations, many of the remaining overtime hours without approvals were
manual time cards for the field-based staff and therefore would not be captured in the webTA
data.

However, during fieldwork we asked mission officials for manual time cards, and they could not
give us any for requests and approvals that could have been made outside of webTA.
Alternatively, the audit team asked officials for any documentation that could substantiate
instances when overtime work would have been requested and approved not in webTA, but
through an alternative means such as e-mail. A mission official replied that in such instances the
mission did not maintain those records, nor was there a requirement that they be kept. As a
result, the audit team was not able to obtain any supplemental documentation that might have
supported overtime requests and approvals that were made outside of webTA.

Recommendation 2. The mission agreed with the recommendation. It stated that it would issue
bills for collection to individuals for all questioned costs determined to be unallowable. In
response to USAID/Afghanistan’s request, OIG will provide the mission the specific details
related to the $24,617 in questioned costs. The mission provided OIG with a target date of
120 days after report issuance for completing this action. We acknowledge that the mission
made a management decision on Recommendation 2.

Recommendation 3. The mission agreed with the recommendation. It stated that its Office of
Financial Management (OFM) team conducts extensive ongoing training and regularly
disseminates guidance governing overtime and webTA procedures. In addition, the mission
noted that in March 2012, it instituted a newcomer’s briefing for all new staff. This briefing
includes an overview of the overtime procedures in webTA and provides a copy of its overtime

                                                                                               12
policy. The mission states that it will supplement the training to make sure all employees
understand the new policy on overtime that the mission intends to put in place.

Finally, the OFM team asked the Agency’s Chief Financial Officer to consider modifying webTA
for certain overtime procedures to strengthen its control and monitoring measures as OIG
recommended. The mission provided a target date of 90 days after report issuance to complete
this action. We acknowledge that the mission made a management decision on
Recommendation 3.

Recommendation 4. After assessing the mission’s response, this draft recommendation was
deleted from the final report.

Recommendation 5. (Recommendation 4 in this final report) The mission partially agreed with
this recommendation. It asked OIG to consider modifying the recommendation to allow closure
within “a reasonable amount of time” instead of the 1-year minimum OIG recommended. In
response, OIG modified the recommendation to allow the mission to demonstrate an acceptable
degree of compliance with applicable regulations and policies. The mission has targeted
6 months after the issuance of this report to complete action for this recommendation.

We acknowledge that the mission made a management decision on this recommendation.




                                                                                         13
                                                                                        Appendix I



SCOPE AND METHODOLOGY
Scope
OIG’s Afghanistan Country Office conducted this audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions in accordance with our audit objective. We believe that the evidence obtained
provides that reasonable basis.

The objective of the audit was to determine whether USAID/Afghanistan was following adequate
control procedures for overtime compensation.

The audit covered overtime earned during all 26 pay periods of 2011 (i.e., from January 1,
2011) and the first 17 pay periods of 2012 (i.e., through August 25, 2012). The audit was limited
to overtime earned by noncommissioned Foreign Service Officers, Civil Service employees, and
U.S. and third-country national personal service contractors that was recorded in USAID’s
webTA system. It did not cover overtime earned by locally employed staff that was recorded in a
separate payroll system. We conducted this audit in USAID/Afghanistan’s OFM and Office of
Human Resources from October 9, 2012, to March 12, 2013.

As part of this audit, we assessed the significant internal controls that USAID/Afghanistan used
to monitor time and attendance activities. The assessment included controls related to whether
mission (1) employees submitted overtime requests before working overtime, (2) supervisors
reviewed overtime requests to see whether they were justified before approving them, and
(3) supervisors approved overtime requests in advance. As part of our assessment, we
reviewed the mission’s Federal Managers’ Financial Integrity Act report for FY 2011, and we
reviewed prior audit reports to identify internal control and other issues that could be relevant to
the current audit.

Methodology
To answer the audit objective, we identified relevant criteria, including criteria in 5 CFR 550,
ADS 472 and 596, and USAID/Afghanistan policies and procedures. During planning and
fieldwork, we conducted interviews with mission officials and some employees. In addition, we
reviewed the following documents:

   Payroll reports generated by webTA that we received from the Office of the Chief Financial
    Officer, OAPA, and OFM covering the scope of our audit.

   NFC payment analysis reports we received from OAPA, Office of the Chief Financial Officer,
    and OFM.

   Personal services contracts for U.S. direct hires and third-country-national employees.

   Prior audit reports that might have an impact in our audit.

   Staffing reports.

                                                                                                 14
                                                                                     Appendix I


To verify overtime hours that employees charged in webTA, we examined details in webTA
payroll reports provided to us to determine whether overtime hours charged (1) were requested
in advance in webTA by employees before they worked overtime, (2) were sufficiently justified,
and (3) were approved by the supervisors in advance. To verify overtime costs paid to
employees, we compared overtime hours that employees claimed in webTA reports to the
overtime expenses paid showing in the payment analysis reports from NFC.

Based on these reports, we applied the percentage rates of the control deficiencies to the total
amount of overtime expenses the mission paid during the scope of our audit to show overtime
hours and associated overtime pay. In this case, because the mission paid $16,577,974 in
overtime expenses, we applied the percentage rates of the unsupported and ineligible overtime
hours to the total amount of overtime expenses the mission paid during the scope of our audit
as shown in Table 3 on page 7 of this report.

To determine the reliability of webTA-generated data, we compared webTA premium reports we
received from the mission and Chief Financial Officer to verify accuracy and completeness. We
shared the data and our analysis of them used in our audit with the mission during fieldwork.
The mission agreed with both. We held a teleconference with the Agency’s key staff responsible
for maintaining webTA to help us understand the system and payroll processes. We obtained
payroll costs from the Office of the Chief Financial Officer to help us determine the overtime
expenses the mission paid during the scope of our audit.

We met with the mission’s master timekeeper to test the reliability of the entries for a limited
number of employees made by following overtime requests in webTA from when they were
submitted to when supervisors approved and certified overtime claims for payments within the
system. For employees who did not submit an overtime request in webTA, the “Submit Date” in
the system was left blank; the master timekeeper said this meant that employees did not submit
overtime requests. Although left blank, webTA records showed that these overtime claims were
certified for payment. This limited testing was judgmental and not statistical.

We also obtained a summary of the Agency’s assessment of webTA business payroll processes
subject to OMB Circular A-123, “Management’s Responsibility for Internal Control.” The
assessment concluded that the payroll business process did not find exceptions or discoveries
of noncompliance in webTA processes. However, the assessment did identify weaknesses in
supervisory approvals and the certification process.

Based on these steps, we concluded that there were no issues with webTA that would affect the
data used for the audit.




                                                                                             15
                                                                        Appendix II



MANAGEMENT COMMENTS


MEMORANDUM

Date:             February 5, 2014

TO:               James Charlifue, OIG/Afghanistan Director

FROM:             William Hammink, Mission Director /s/

SUBJECT:          Mission’s Response to the Draft Report on the Audit of
                  USAID/Afghanistan’s Management Controls over Overtime
                  Compensation (Report No. F-306-14-00X-P)

GENERAL COMMENTS

We appreciate the OIG’s efforts in conducting the subject audit and the
opportunity to review and comment on the report and its recommendations.

We understand the sensitivity surrounding proper management and use of
overtime. However, it is important to bear in mind that USAID/Afghanistan is not
an ordinary USAID Mission. The expectation of the Agency and the Embassy, by
and large, is that employees in Kabul will work at least six days per week (field
officers outside of Kabul are often expected to work seven days per week) and
more than eight hours on any given day. As a result, USAID/Afghanistan
acknowledges the need to prepare an overarching Mission Order (policy) to
supplement standard Agency guidelines that recognizes the regular and recurring
need for overtime and establishes controls needed to manage and monitor
overtime.

We recognize that the Embassy Kabul and USAID/Afghanistan in-country policy
guidance regarding overtime compensation has sometimes been inconsistent, and
may have created a certain degree of confusion amongst USAID employees in
Kabul and the field. This has been further confused by the Embassy policy to
grant a standard six-day work week to Department of State Employees. Agency

                                                                                16
                                                                          Appendix II


policy and, by extension, Mission-promulgated policies require pre-approval of
“irregular and occasional overtime” via WebTA. However, the need for overtime
in Afghanistan is hardly “irregular and occasional.” Most people outside of Kabul
worked a seven-day work schedule because they were working directly with the
military. The work flow of field staff was, and had to be, driven by the schedule of
their military counterparts. Adhering to this pace was essential for a successful
civilian-military partnership. In addition, working outside of Kabul presented
unique challenges such as limited access to reliable internet and phone
connectivity, which in turn made it difficult to meet WebTA requirements.

The need to work long hours in an active war zone is not something that can be
planned for and justified in writing easily in advance. One of the concerns raised
in the audit report was the lack of pre-approval for overtime. However, in nearly
every case, the supervisor approved the timecard thereby approving the hours
worked. Thus, we believe the timecards are an accurate reflection of the actual
time worked.

RESPONSE TO AUDIT RECOMMENDATIONS

Recommendation 1: We recommend that USAID/Afghanistan determine the
allowability of $16,286,163 in unsupported questioned costs representing:
1) $16,013,318 in overtime expenses that were missing required approvals by
USAID supervisors; 2) $193,805 in overtime expenses for which justifications
were missing completely, and, 3) $76,040 that were too vague to serve as a
basis for approvals, and recover the amounts determined to be ineligible for
payment under applicable regulations or USAID or mission policies.

USAID Comments: USAID/Afghanistan does not concur with Recommendation
1.

We note the data provided to the OIG for this audit was incomplete. The OIG’s
original query tried to match approved premium pay requests from one table with
premium pay hours worked from another table and given the complexities of the
WebTA database, the output resulted in a number of unanticipated inaccuracies. In
addition, the query was not designed to capture cases where premium pay had been
requested but not approved. To fully verify the accuracy of the query results, a
check of the data against actual timecards would have been necessary – which was
not done given the time constraint and target due date of the original request.



                                                                                     17
                                                                                Appendix II


An analysis of the complete data set was compiled and completed by the Office of
Afghanistan and Pakistan Affairs (OAPA) and indicates that 64.75% of the paid
overtime was indeed requested and approved in WebTA (as opposed to only 6%,
as indicated by the OIG). Below is a snapshot of the analysis conducted on the
corrected data:

New WEBTA Data File
USDH, USPSC and TCN Overtime Claims from PP 01/2011 thru 17/2012
(Period covered by the OIG Audit)
                        Overtime Request Approval Status
                                         Timecards          Overtime hours
                                  count        as %         count      as %
1 - REQUEST AND APPROVED           5,959           62.96%    201,146  64.75%
2 - REQUEST PENDING                  454            3.96%     15,341    4.94%
3 - REQUEST DENIED                    41            0.37%      1,294    0.42%
No Request                         3,764           32.71%     92,874  29.90%
Total                             10,218         100.00%     310,655 100.00%



Furthermore, until 2012, employees who worked in the field completed manual
timecards and faxed them to their respective Kabul timekeeper. This was due to
the limited bandwidth for internet connectivity in various locations. Thus, many of
the remaining 29.90% of overtime hours reflected above as not having approvals
were manual timecards for the field-based staff and therefore would not be
captured in the WebTA data.

USAID respectfully requests that the OIG revise Recommendation 1 to reflect the
correct amounts.

Actions Taken/Planned:

USAID/Afghanistan considered the allowability of the questioned costs as
recommended by the OIG and determined these costs to be allowable. The reason
for this determination is that we believe the overtime hours questioned were in fact
worked in accordance with the policy in effect at the time the overtime was
reported; those hours were recorded in WebTA either by the employee or his/her
respective timekeeper and were approved in WebTA by the employee’s supervisor
or other official familiar with the employee’s work at the time of certification.
This is in compliance with GAO-03-352G and 5 CFR Sec550.111 (approval in
WebTA is the equivalent to approving the overtime in writing).



                                                                                        18
                                                                           Appendix II


We recognize that the Kabul Mission policy on the pre-approval of overtime in
WebTA has been in constant change, resulting in a policy that was confusing and
not consistently followed. The following outline reflects the evolution of the
overtime policy in Afghanistan:

 February 14, 2011: Email guidance including the provision that "Blanket,
  mission-wide pre-approval is granted for 20 hours of overtime per pay period
  for Kabul; 24 hours for the field.”

 January 19, 2011: State issued guidance (Management Policy (MP) 036)
  providing pre-approved authorization for scheduled overtime up to 35 hours per
  pay period for Kabul personnel and 45 hours per pay period for field personnel.
  Advance approval of these hours was to be documented upon arrival at post and
  applied for the duration of the employee’s assignment in Afghanistan.
 March 8, 2011: USAID published overtime guidance (circulated by email)
  indicating “Overtime can be requested only through WebTA, for any employee
  who has access to WebTA.”
 September 1, 2011: EXO email guidance that “Employees entitled to overtime
  are pre-approved for 35 hours of overtime in Kabul and 45 hours of overtime in
  the field (versus 20 in Kabul/24 in the field).”
 October 20, 2011: The above notices were all rescinded by the joint USAID
  EXO/Controller Administrative Notice, which is the basis of our current written
  policy.
 February 20, 2013: State MP 86 guidance addressed to "ALL Americans" and
  authorizing all necessary overtime to achieve essential U.S. Government
  objectives in Afghanistan and reconfirming pre-approval authorization of the 35
  hours per pay period for Kabul personnel and 45 hours per pay period for field
  personnel.

Most of the overtime hours worked and reported during the audit period fell within
one or more of the pre-approved levels of the issued guidance. USAID recognizes
the need to establish an overtime policy that reflects the realities in Afghanistan –
recognizing that overtime work is not irregular and occasional but is a regular
requirement for mission employees. As previously indicated, USAID/Afghanistan
is putting in place a new overtime policy that takes these factors into account and
provides clear guidance and controls on overtime approval requirements.




                                                                                   19
                                                                          Appendix II


Management Decision
Based on the above and in light of the new data, we request OIG to reduce the
amount of questioned costs and to acknowledge the management decision for
Recommendation 1.

Recommendation 2: We recommend that USAID/Afghanistan determine the
allowability of $24,617 in ineligible questioned costs, representing overtime
paid for time in training or in travel status, and recover the amounts
determined to be ineligible for payment under applicable regulations.

USAID Comments: USAID/Afghanistan concurs with Recommendation 2.

Actions Taken/Planned:

In order to take action on this recommendation, USAID/Afghanistan requests the
OIG provide the mission with the details related to the $24,617 in questioned costs:
i.e. names, pay periods in question, and inappropriately recorded overtime
requests. Upon receipt and review of the supporting documentation, USAID will
make a determination regarding the allowability of $24,617 in ineligible
questioned costs, as recommended. USAID/Afghanistan will issue Bills for
Collection to individuals for all questioned costs determined to be unallowable.

Recommendation 3: We recommend that USAID/Afghanistan implement
more effective training, control activities, and monitoring related to control of
overtime compensation.

USAID Comments: USAID/Afghanistan concurs with Recommendation 3.

Actions Taken/Planned:

USAID/Afghanistan’s OFM team currently conducts extensive training on an on-
going basis and regularly disseminates guidance governing overtime and WebTA
procedures. Since March 2012, USAID/Afghanistan OFM instituted a newcomer’s
briefing for all new staff, which includes an overview of the overtime procedures
as they relate to WebTA and provides a copy of the Mission’s overtime policy.
This training will continue, as it has proven beneficial to our staff.

In order to supplement the training that is already on-going and to ensure full
understanding of the new policy on overtime that the Mission intends to put in
place, as referenced under Recommendation 1, USAID/Afghanistan’s OFM will

                                                                                  20
                                                                           Appendix II


conduct specific training for Mission staff on WebTA policies and procedures
relating to overtime.

Finally, USAID/Afghanistan’s OFM Team has proactively reached out to the CFO
to request that the Agency consider modifications to WebTA for certain overtime
procedures in order to strengthen the control and monitoring measures as
recommended by the OIG.

Management Decision:
Based on the above, we request OIG’s acknowledgement of the management
decision for Recommendation 3.

Recommendation 4: We recommend that USAID/Afghanistan change its
methods of providing guidance to supervisors and employees for proper
behavior related to overtime compensation issues, providing discipline
when appropriate, and ensuring an appropriate level of understanding of
the importance of developing and implementing appropriate control over
overtime compensation, in order to improve the control environment within
USAID/Afghanistan related to overtime compensation.

USAID Comments: USAID/Afghanistan is unable to concur with
Recommendation 4. The Mission requests the OIG change the recommendation to
provide greater clarity and to make it actionable. In particular, the Mission is
unclear about the meaning and the intention with regard to a “change of methods
of providing guidance” to staff. In addition, this Recommendation appears to
already be covered by Recommendation 3, which addresses training, control
activities, and monitoring. Finally, with respect to disciplinary action, the Mission
notes that no misconduct has been presented nor noted in the audit report.

Based on the above, we request OIG change its recommendation or delete it in its
entirety as it is duplicative of Recommendation 3.

Recommendation 5: We recommend that USAID/Afghanistan provide
periodic reports, at least quarterly, to the Mission Director on its monitoring
of control activities related to overtime compensation until it can demonstrate
an acceptable degree of compliance with applicable regulations and policies
for at least a year.

USAID Comments: USAID/Afghanistan partially concurs with Recommendation
5.

                                                                                   21
                                                                                                                                                                                              Appendix II



Actions Taken/Planned:

USAID/Afghanistan requests the OIG modify the recommendation to allow for its
closure within a reasonable amount of time. We, therefore, request that OIG
exclude the following statement, “until it can demonstrate an acceptable degree
of compliance with applicable regulations and policies for at least a year.” The
following chart clearly indicates a significant increase in the level of compliance of
overtime requested and approved during the audit period.

                                                          OT request approvals increase over time
                          10000


                           8000
 Claimed overtime hours




                           6000                                                                                                                                                        REQUEST DENIED
                                                                                                                                                                                       REQUEST PENDING
                                                                                                                                                                                       REQUEST APPROVED
                           4000                                                                                                                                                        NO REQUEST



                           2000



                              0
                                  01

                                       03

                                             05

                                                    07

                                                           09

                                                                  11
                                                                         13

                                                                                15

                                                                                       17

                                                                                              19

                                                                                                     21

                                                                                                            23

                                                                                                                   25

                                                                                                                          01
                                                                                                                                 03

                                                                                                                                        05

                                                                                                                                               07

                                                                                                                                                      09

                                                                                                                                                             11

                                                                                                                                                                    13

                                                                                                                                                                           15

                                                                                                                                                                                  17
                                -

                                       -

                                              -

                                                     -

                                                            -

                                                                   -
                                                                          -

                                                                                 -

                                                                                        -

                                                                                               -

                                                                                                      -

                                                                                                             -

                                                                                                                    -

                                                                                                                           -
                                                                                                                                  -

                                                                                                                                         -

                                                                                                                                                -

                                                                                                                                                       -

                                                                                                                                                              -

                                                                                                                                                                     -

                                                                                                                                                                            -

                                                                                                                                                                                   -
                             11

                                    11

                                           11

                                                  11

                                                         11

                                                                11
                                                                       11

                                                                              11

                                                                                     11

                                                                                            11

                                                                                                   11

                                                                                                          11

                                                                                                                 11

                                                                                                                        12
                                                                                                                               12

                                                                                                                                      12

                                                                                                                                             12

                                                                                                                                                    12

                                                                                                                                                           12

                                                                                                                                                                  12

                                                                                                                                                                         12

                                                                                                                                                                                12
                            20

                                  20

                                       20

                                              20

                                                     20

                                                            20
                                                                  20

                                                                          20

                                                                                 20

                                                                                        20

                                                                                               20

                                                                                                      20

                                                                                                             20

                                                                                                                    20
                                                                                                                          20

                                                                                                                                  20

                                                                                                                                         20

                                                                                                                                                20

                                                                                                                                                       20

                                                                                                                                                              20

                                                                                                                                                                     20

                                                                                                                                                                            20


                                                                                                   Pay period




The Mission has worked with the WebTA team in Washington to obtain reliable,
regular, overtime management reports which have been provided to the Mission
Director on a pay period basis since August 2013. As noted in the comments on
Recommendation 1, recent data confirms that the Mission currently has a high
level of compliance with applicable policy and regulation. The analysis for the
following pay periods demonstrates USAID/Afghanistan’s commitment to
improving internal controls:

a) In pay period 22/2013, according to a query (pulled from the WebTA database),
   157 employees were paid overtime, and 156 of 157 employees had requested
   overtime in WebTA.

b) In pay period 23/2013, according to an identical query, 162 employees were
   paid overtime, 156 of 162 employees had requested overtime in WebTA.



                                                                                                                                                                                                          22
                                                                            Appendix II


The Mission believes that it has complied with the core principle of this
recommendation.

Management Decision and Closure Request:

Based on the above, we request OIG modify Recommendation 5 as noted above
and request concurrence to close Recommendation 5.




                                                                                    23
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
           http://.oig.usaid.gov
